SEC.gov |  Philadelphia District Office
Search SEC Documents
Company Filings | More Search Options
Skip to Main Content
About
What We Do
Commissioners
Securities Laws
SEC Docket
Reports
Careers
Contact
Divisions
Corporation Finance
Enforcement
Investment Management
Economic and Risk Analysis
Trading and Markets
National Exam Program
All Divisions and Offices
Enforcement
Litigation Releases
Administrative Proceedings
Opinions and Adjudicatory Orders
Accounting and Auditing
Trading Suspensions
How Investigations Work
Administrative Law Judges
Regulation
Proposed Rules
Final Rules
Interim Final Temporary Rules
Other Orders and Notices
Self-Regulatory Organizations
Staff Interpretations
Education
Investor.gov
Check Out a Broker or Adviser
Investor Alerts and Bulletins
Fast Answers
File a Tip or Complaint
Publications
Filings
EDGAR Search Tools
Company Filings Search
How to Search EDGAR
Requesting Public Documents
Descriptions of Filing Types
Information for Filers
About EDGAR
News
Press Releases
Public Statements
Speeches
Testimony
Spotlight Topics
What's New
News Digest
Events
Webcasts
Special Studies
Philadelphia District Office
Inspector General
About OIG Office of Audits Office of Investigations Semiannual Reports Testimony Other Publications References Links Relevant FOIA Documents Contact Us
This document is an HTML formatted version of a printed document.
The printed document may contain agency comments, charts, photographs,
appendices, footnotes and page numbers which may not be reproduced in this
electronic version.  If you require a printed version of this document
contact the United States Securities and Exchange Commission, Office of
Inspector General, Mail Stop 11-7, 450 Fifth Street N.W., Washington, D.C.
20549 or call (202) 942-4460.
Philadelphia District Office
Audit No. 286
December 29, 1998
Limited Audit of Financial and Administrative Controls
INTRODUCTION
The Office of Inspector General conducted a limited audit of the financial and administrative controls of the Philadelphia District Office (PDO).  The audit procedures were limited to interviewing PDO staff, reviewing supporting documentation, and conducting limited tests of transactions.  The purpose of the audit was to provide the Commission with negative assurance that the internal controls were adequate, implemented economically and efficiently, and in compliance with Commission policies and procedures.  The audit was performed in accordance with generally accepted government auditing standards during September and October, 1998.
BACKGROUND
The Philadelphia District Office assists the Northeast Regional Office in administering Commission programs.  In carrying out its responsibilities, the PDO exercises a broad range of financial and administrative functions, including maintaining time and attendance records; procuring supplies and services; arranging for staff travel; maintaining an inventory of property; and recording budgeted and actual expenditures of the office.
AUDIT RESULTS
During our limited audit, we identified two material issues.  Commission guidance for determining the appropriate size of imprest funds needs to be enhanced.  To save money, the PDO should order only enough transit subsidy checks to cover yearly needs.   These issues are further explained below.
Otherwise, our limited review indicated that the PDO's controls were generally adequate, implemented economically and efficiently, and in compliance with Commission policies and procedures.  We discussed some  non-material findings and informal recommendations with PDO management.  The PDO concurred with the findings and recommendations.
imprest fund
The PDO verbally asked the Comptroller's Office for an increase in the size of its imprest fund (currently $500), because it felt the fund was not large enough to meet its needs.  The request was denied by the Comptroller's Office.
A Treasury form (OF-211, Request for Change or Establishment of Imprest Fund), not a verbal request, is the proper means to request a change in fund size.  Commission imprest fund guidance (SECR 16-1) mentions this form, but does not explain its use for this purpose.   Also, the guidance does not  establish criteria for determining proper fund size, as required by the Treasury.
Recommendation A
The Office of Administrative and Personnel Management (OAPM), in consultation with the Comptroller's Office, should issue guidance on the procedures and criteria for changing the size of imprest funds.
Recommendation B
The PDO should submit a request to increase its imprest fund in accordance with OAPM's guidance.
transit subsidy
The PDO orders 867 transit subsidy checks (at $21.65 each) at the beginning of each calendar year for PDO employees.   The checks expire after 13 months and are not refundable.   According to the vendor, the checks can be purchased monthly or quarterly rather than annually.
After the September-October disbursement, the PDO had 354 checks on hand.  At current usage rates, 162 checks costing $3507.30 will expire at the end of January.  The PDO needs to change its ordering procedures to prevent a waste of funds, and reduce the size of its transit check inventory.
Recommendation C
The PDO should order transit subsidy checks quarterly or monthly, based on projected needs.
Recommendation D
Before the surplus transit checks expire, the PDO should ask the Office of Administrative and Personnel Management what should be done with them (e.g., distribute them to PDO staff, transfer them to another government agency, or donate them to charity).
Site Map
Accessibility
Contracts
Privacy
Inspector General
Agency Financial Report
Budget & Performance
Careers
Contact
FOIA
No FEAR Act & EEO Data
Whistleblower Protection
Open Government
Plain Writing
Links
Investor.gov
USA.gov
U.S. Securities and Exchange Commission
ABOUT
DIVISIONS
ENFORCEMENT
REGULATION
EDUCATION
FILINGS
NEWSROOM
Inspector General
About OIG
Office of Audits
Office of Investigations
Semiannual Reports
Testimony
Other Publications
References Links
Relevant FOIA Documents
Contact Us